NO. _________
In the

Supreme Court of the United States
October Term, 2019
____________
JAMES K. COLLINS AND TONI SHARRETTS COLLINS,
Petitioners
v.
D.R. HORTON-TEXAS, LTD.,
Respondent
__________
Appeal from the Supreme Court of Texas
Cause No. 19-0397
____________
APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR CERTIORARI
TO THE UNITED STATES SUPREME COURT
______________
TONI L. SHARRETTS COLLINS
LAW OFFICE OF TONI L. SHARRETTS COLLINS
Unites States Supreme Court Bar No. 312013
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 – Telephone
iceattorney@aol.com
Attorney for Petitioners
Feb. 21, 2020
_________________
1

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Fifth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
Petitioners, JAMES K. COLLINS and TONI SHARRETTS COLLINS
(“COLLINS”), pray for a sixty (60) day extension of time to file their petition for
certiorari in this Court to and including May 10, 2020.
On June 9, 2017, the trial court granted a summary judgment, which is the
decision sought to be reviewed. On Dec. 20, 2018, after oral argument, the
Fourteenth Court of Appeals of the State of Texas affirmed the trial court’s
judgment. On July 26, 2019, the Texas Supreme Court denied COLLINS’ petition
for review. On Sept. 13, 2019, the Texas Supreme Court granted COLLINS’ motion
for extension of time to file a motion for rehearing. On Oct. 11, 2019, COLLINS
filed their amended motion for rehearing for petition for review. On Dec. 13, 2019,
the Texas Supreme Court denied COLLINS’ amended motion for rehearing, being
the final ruling by the Texas Supreme Court. COLLINS time to petition for certiorari
in this Court expires March 12, 2020. This application is being filed more than 10
days before that time.
Copies of the opinion and orders referenced above are attached.
jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
2

The

As shown by the opinion below and Petitioners’ amended motion for
rehearing, this case involves whether the Fourteenth Amendment allows a state to
enforce a void federal judgment obtained without the personal jurisdiction over and
notice to the defendant land owners resulting in an unconstitutional taking of land.
The case also presents the issue of whether a federal court may simply “opine out of
existence” the vested property rights of landowners without following the state
statutes, rules of survey, property record interpretation and certified patents of the
Texas General Land Office in violation of the Tenth Amendment.
In the instant case, a federal trial court opined that the patented Sieberman
state land survey certified by the Texas General Land Office does not exist. This
federal decision was made without notice or joinder to the landowners, without
notice to the Texas General Land Office and without application of state property
and survey law resulting in a void federal judgment. Such void federal judgment is
the only basis for the Respondent’s title.
This case presents important questions under the Constitution of the United
States that were determined adversely to Petitioners by the court below in violation
of the Fourteenth and Tenth Amendments.

First, whether the Fourteenth

Amendment allows a state to enforce a void judgment obtained without personal
jurisdiction over and notice to the defendant. Second, whether a district court may
“extinguish” an existing certified state Texas General Land Office survey without
3

joinder of or notice to the state and in contradiction to state law and the Tenth
Amendment.

The questions presented are substantial because they determine

whether the United States allows title to land to be taken from an owner by summary
judgment predicated entirely on a void federal judgment.
Petitioners had at all times been represented in the trial court by Michael D.
Jones, a member of the Bar of this Court. Petitioners have at all times been
represented in the appellate court by Toni Sharretts Collins, a party to this case and
a member of the Bar of this Court. The requested extension is necessary because
Petitioners were celebrating the holidays with family during Dec. 2019. In January
and February, Ms. Collins suffered serious illness related to infection of her artificial
hip and compromised immune system resulting in incapacity that she has only
recently been able to return to practice. Despite Ms. Collins’ illness, she continued
to maintain substantial trial and briefing obligations, including a pending adversarial
probate jury trial in Melissa McFaden Estate, et al., v. William Clay McFaden, et
al., Cause No. 456775-401, Harris County Probate Court 1, a significant number of
pro-bono immigration cases due to the overwhelming number of illegal aliens
needing adjudication for relief of deportation and complex felony trials in Harris
County defending claims of kidnapping, retaliation, violation of protective orders,
DWIs, drug possession and aggravated assault. Ms. Collins is a new member of the
Bar of this Court, and due to her illness, overwhelming caseload and inexperience
4

in this Court, Ms. Collins recently hired consulting counsel to assist in presentation
of Petitioners’ case. Consulting counsel needs additional time to familiarize himself
with the voluminous record (23 volumes and over 6000 pages) and to perform the
necessary legal research so that the questions may be properly framed and argued to
this Court.
For these reasons, Petitioners respectfully request that an order be entered
extending their time to petition for certiorari in the above-captioned case to and
including May 10, 2020.
Respectfully submitted,
s/ Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS
February 21, 2020
SCOTUS Bar No. 312913
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 – telephone
iceattorney@aol.com
ATTORNEY FOR PETITIONERS

5

